11   1:.




           Department of Health and Human Servces
                   OFFICE OF
              INSPECTOR GENERAL




           NATIONAL DRG VALIDATION STUDY

              UPDATE: SUMMARY REPORT





                          AUGUST 199

. J





                                 OFFCE OF INSPEcrR GENERA

        The mission of the Office of Inspector General (OIG), as mandated by Public Law 95­
        452, as amended , is to protect the integrity of the U. S. Department of Health and
        Human Servces (HHS) programs as well as the health and welfare of beneficiaries
        served by those programs. This statutory mission is carred out through a nationwide
        network of audits , investigations , and inspections conducted by three OIG operating
        components: Office of Audit Servces (OAS), Office of Investigations (01), and Office
        of Evaluations and Inspections (OEI). The OIG also informs the Secretary of HHS
        program and management problems and recommends actions to correct them.

                                   OFFCE OF AUDIT SERVICE
        The OAS provides all auditing servces for HHS , either with its own resources or by
        overseeing work done by others. Audits examine the performance of HHS programs
        and/or its grantees and contractors in carrng out their respective responsibilties.
        Audits provide independent assessments of HHS programs and operations in order to
        reduce waste , abuse , and mismanagement; and to promote economy and effciency
        throughout the Department.

                                   OFFCE OF INTIGATIONS
         The 01 conducts criminal , civil , and administrative investigations of alleged
         wrongdoing in HHS programs or to HHS beneficiaries , and of unjust enrichment by
       / providers. The investigative efforts of 01 lead to criminal convictions , administrative
       . sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud control
         units which investigate and prosecute fraud and patient abuse in the Medicaid
        program.

                          OFFCE OF EVALUATION AN INSPECTONS

        The OEI conducts short-term management and program evaluations (called
        inspections) that focus on issues of concern to the Department , Congress , and public.
        The findings and recommendations contained in these inspection reports generate
        rapid , accurate , and up- to- date information on the efficiency, vulnerabilty, and
        effectiveness of departmental programs.

        The information for this report was collected under contracts with Baxer-Health Data
        Institute and BOTEC Analysis Corporation. A list of project participants appears in
        Appendix A.
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





NATIONAL DRG VALIDATION STUDY

   UPDATE: SUMMARY REPORT





          AUGUST 199 OEI- 12-8190

                EXECUTIVE SUMMAR 

 PUROSE
 Ths inspection   reabstracted the International Classification of Diseases ,   9th Edition
 Clinical Modification (ICD- CM) codes from a sample of Medicare discharges on a
 blinded basis. It compared the resulting diagnosis-related group (DRG) to the
 hospital's DRG to determine over-reimbursement or under-reimbursement. The
 sample was nationally representative and covered all of calendar year 1988, the most
 recent data available.

 Ths study updates a previous inspection from the Office of Inspector General (OIG).
 It found that 20. 8                                    coding errors that changed
                       percent of 1985 Part A bils contained
 the DRG and that 61.7 percent of these errors over-reimbursed the hospitals. This
 improper DRG " creep " increased total prospective-payment system (PPS)
 disbursements by 1.9 percent or $308 milion.

 FIINGS
 DRG coding error reduced : 14. 7 percent of 1988 discharges had DRG coding errors.
 Ths proportion of coding errors was statistically significantly lower than the 20.
 percent reported for 1985.

 DRG creep eliminated : 50. 7 percent of DRG errors over-reimbursed the hospital.
 This proportion differed signifcantly from the 61.7 percent over-reimbursed reported
: for 1985.
 DRG coding errors. overall. no longer over-reimburse hospitals : Taken together, 1988
 DRG errors had the net financial effect of under-reimbursing all hospitals a non­
 significant $69. 8 milion , or 0. 1 percent of the $52 bilion in 1988 PPS disbursements.
 Projected nationally, over-reimbursements totaled $2 657. 8 milion and under-
 reimbursements totaled $2 588.0     milion.


 Mis-specification errors under-reimbursed the hospitals : Of the 361 DRG errors in the
 sample , 63. 2 percent occurred because the attending physician mis-specified the
 narrative diagnoses. Of these 227 mis-specification errors , only 43. 2 percent over-
 reimbursed the hospitals. The statutorily-required attestation probably reminded
 physicians of their obligation to select accurate narrative diagnoses.

 Resequencing errors over-reimbursed the hospitals : Of the 361 DRG errors in the
 sample , another 26. 6 percent occurred because the hospital substituted a secondary
 diagnosis for the (correct , narrative) principal diagnosis. Of these 96 resequencing
 errors , 66. 7 percent over-reimbursed the hospitals. The sentinel effect of the Peer
 Review Organizations (PRO) surveilance apparently did not fully prevent over-
 reimbursement due to resequencing.
 RECOMMATIONS
     The Peer Revew Orgations should contiue their sureilance of hospita
     cog   for DRG reimburment acccy.

     The attestation requirement appears to have deterred over-reimbursement due to
     mis specifcation by attending physicians , causing their hospitals to be under-
     reimbursed. However, the sentinel effect did not fully prevent over-reimbursement
     due to resequencing by hospitals. Although these two trends approxiately offset
     each other, this equilbrium may not continue in the future.

     The Agency for Health Care Policy Research plans to reabstract the ICD-
     codes from a large sample of Medicare charts to determe their diagnostic
     accuracy for health servces research purposes. Using 1991 data, grouping these
     ICD- CM codes to DRGs , and selecting reasons for any diferences would provide
     a third time point with which to track trends in reimbursement accuracy. The OIG
     supports this effort.

 AGENCY      COMM
 In its May 29, 1992 comments to the draft of this inspection, the Health Care
 Financing Agency (HCFA) concurred with the OIG recommendation. The HCFA
 noted that the improvement in DRG coding accuracy may be attributable to increased
 hospital experience with PPS , PRO review, and HCF A educational efforts.

/ The HCF A also made a number of technical comments. Based on these comments
  the OIG made several changes to this report. The full text of the HCFA comments
 appear as an appendix.
                                                   ........................
                              .............................................
                                               .. ....     ....    ... . . .. ....                                                            ........'.....................................'.... ... .... ..................
             .. .. .. .. .. .. .. .. .. .... ..... .............................................................................................                                                                           ......




             TABLE OF CONTENTS

EXECUTIVE    SUMY.
TABLE OF CONTNTS

mTODUCfION
   ORIGIN OF TH PREENT STUY
    METHODOLOGY
    SAMLE REPRESENTATIVNESS

FININGS. .
    DRG CODING ERROR REDUCED
    DRG CREEP ELIMINATED

    MIS- SPECIFICATION UNER-REIMURSES , WfILE
    REEQUENCING OVER-REIMURSES
    CERTAI DRGS AR MOST SUSCEPTffLE TO ERROR

RECOMMNDATIONS

ENDNOTE
APPENDIX A: PROJECf PARTICIPANS

APPENDIX B: HCFA COMMNTS
                           INTRODUCTION

 Since the inception of the Medicare program, health care expenditures have grown
 faster than the rest of the economy, and the Medicare program has grown even faster
 than general health care expenditures. The need for innovative reimbursement
 policies and their evaluation has become critical to medical communities , beneficiaries
  and payers.

  ORIGIN OF TH        PREEN STUY
  Since 1965 ,Medicare has provided hospital and medical insurance to the nation
 elderly and disabled. However, rapidly escalating health care costs coupled with a
 rise in the proportion of the population eligible for Medicare have burdened its
 hospital insurance trust fund (Part A). Health care costs accounted for 7.4 percent of
 the gross national product in 1970 , 9. 1 percent in 1980 , and 10. 9 percent in 1986. In
 1970, Medicare paid 8 percent of all health care costs , but by 1986 Medicare
 proportion increased to 17 percent.



   In 1983 Congress changed Medicare inpatient reimbursement from a retrospective
   reasonable-cost basis to a prospective-payment system (PPS). 3 Under the PPS
   hospital payments depended upon the patient s diseases and procedures as defined by
   the International Classification of Diseases , 9th Edition , Clinical Modification (lCD-
   CM). 4 The PPS "grouped" various combinations of the approximately 10 000 ICD­
   CM codes into 476 diagnosis-related groups (DRGs).5 By reimbursing the average
   cost of care for each DRG, the PPS provided incentives for effcient delivery of health
 ' care. The Veterans Administration Medical System Resource Allocation Method
, emulated this change.

 A hospital files a claim for Medicare payment at the time of patient discharge. The
 attending physician writes the narrative diagnoses and procedures on the face sheet;
 and attests to the principal diagnosis, secondary diagnoses , and any procedures. The
 hospital's medical records department then assigns numeric , ICD- CM codes to the
 narrative diagnoses and procedures , using the rules of the Uniform Hospital Discharge
 Data Set (UHDS), " a minimum data set used by HHS programs to collect data on
 individual hospital discharges on a continuing basis.'t6 The hospital's biling
 department enters up to five diagnoses and three procedure codes on the Medicare
  claim form. A Fiscal Intermediary (FI) for each State receives the hospital bils. 

  runs GROUPER software to select the correct DRG by assessing diagnosis and
  procedure codes. It then runs PRICER software that adjusts for geographic location
  teaching costs , and other factors to calculate the payment due to the hospital.

  Since 1976 the Office of the Inspector General (OIG) has had responsibilty for

  protecting the integrity of the programs and program beneficiaries of the U.

  Department of Health and Human Servces (HHS). 7 Following this statutory

  mandate , the OIG commissioned the 1985 National DRG Validation Study (1985

  Study), which examined how the processes that assigned diagnosis and procedure

 codes affected the accuracy of PPS reimbursement for Medicare discharges.8 The
 1985 Study analyzed a representative, national' sample of medical records to obtain
 inormation on the accuracy of the diagnosis and procedure coding, the impact of
 codig errors on DRG assignent, and the potential net fiancial impact of coding
 errors. It also assessed the appropriateness and quality of the servces provided to
 Medicare patients.

The 1985 Study found an overall error proportion of 20. 8 percent in assigng DRGs.
In 61.7 percent of the errors , the hospitals over-reimbursed themselves. Physician mis­
specifcation of narrative diagnoses and hospital bilg department resequencing of
diagnoses caused most errors. These errors caused $308 mion in overpayments to
hospitals , 1.9 percent of PPS disbursements.

The Health Care Financing Admistration (HCF A), as the payer of the Medicare
reimbursements , made the followig points in commenting on the 1985 Study.

       The PPS started in 1983. The 1985 Study data covered FY 1985. Physicians
       hospital coders , and Peer Review Organiztions (PROs) needed a longer
       learng period to adjust to the new payment and qualty monitorig system.
       The 1985 Study appeared in 1987, so that its    coc1usions deried in part from
       inormation and coding conventions that had      undergone updating by that time.

       The HCF A and hospital associations recently had begun to conduct traing
       semiars for hospital personnel. The HCF A therefore expected-1hat coding
       errors would decrease over time.

To examie these trends , the OIG intiated a follow-up project , implemented through
contracts with the Health Data Institute (HDI) of Lexigton , Massachusetts; American
Medical Records Association (AM) of Chicago , Ilois; and BOTEC Analysis
Corporation (BOTEC) of Cambridge, Massachusetts using 1988 data. The purpose of
this inspection, the DRG Validation Study Update (1988 Study), was to determe
how the PPS' s coding accuracy had changed over time. The OIG designed this
inspection to meet the followig objectives.

       Replicate the 1985 work on coding accuracy, using 1988 data.

       Compare the findings from 1985      and 1988.

       Identif patterns of coding errors   that PPS changes could modify.

As in the previous study, this inspection assessed how coding errors affected hospital
reimbursement and identifed the coding problems most subject to error. It evaluated
hospital and beneficiary characteristics for their relative contnbution to DRG errors.
METHODOLOY
The OIG randomly selected 2 680 discharges from 1 744 acute care hospitals. The
study population consisted of the 10. 8 milion Medicare funded discharges for calendar
year (CY) 1988 from the 6 715 acute care , short-stay hospitals in the United States.
The design excluded discharges from specialty institutions such as children s hospitals
tuberculosis units , and psychiatric facilties. It also excluded discharges in Maryland
and New Jersey, which the PPS stil exempted in 1988. It excluded bils for pediatric
obstetric, and psychiatric DRGs (pricipally drug and alcohol rehabiltation performed
by a general hospital). Unlike its FY 1985 predecessor, it included hospitals
established since the advent of the PPS in 1983.

The OIG requested that the hospitals ' medical records departments send complete
copies of the selected medical records to the OIG' s contractor, the HDI. With follow-
up, the OIG ultimately obtained 2 451 medical records , 91.4 percent of those selected.
The OIG compelled the cooperation of four hospitals by administrative subpoenas.

The  AM        reabstracted the charts by selecting ICD- CM codes supported by the
record , selected the principal diagnosis , and grouped to select the DRG. To ensure
that the original ICD- CM codes and DRG codes did not affect the AM'
reabstraction , theAM     coders conducted this reabstraction without knowledge of
the original ICD- CM codes and DRG codes. The coders had instructions not to
treat marginal problems or honest differences in judgment about appropriate coding
as DRG errors. This standard should have produced a conservative estimate of the
proportion of discharges having    DRG errors.

The AMRA also identifed the reasons why a hospital's bil differed from the correct
codes. Where multiple reasons      applied , the coders had instructions to select the first
chronological reason (i.e. , mis-specification -+ miscoding -+ resequencing -+ other).
Finally,   AM   entered its reabstracted codes into a personal computer database
provided by the OIG. A series of reliabilty checks verified the reproducibilty and
accuracy of the  AM     coding.

SAMLE REPREENATINES
The sample accurately represented the characteristics   of the underlyig population.
Distributed by hospital demography, it did not differ from the population in bed size
teaching status , location , or control. (Figure 1).

The sample also accurately represented the underlying population by patient age and
sex. However, the OIG made remedial efforts to classify unknowns by race. This
match to other government fies reduced the proportion of sample unkowns in
comparison to the underlying population. ll The volume of cases precluded a similar
reclassification of unkowns for the entire population. Without the OIG'
reclassification , the sample would also have conformed to racial distribution of the
underlying population. (Figure 2).
                  .-....-.
                  --




                       Bed size                              Teaching status

         10029                                               TII                        Tea1n




                                                 NoIn
        Saple               Poplation             Saple                         Population


                       Lotion                                     Control

                        MeII
      MeII
             r=                                  No   r: Gome   Pr Nopl




                                         Nome                                                 Gome
        Saple               Population            Saple                     Population

Figue 1: Sample representativeness by hospital demography, 1988

                         Age                                              Sex
                                  6574                                                       Mal
         6574                                             Mal




        75­                       75-                                            Fem
       Sample                Population           Sample                         Population


                                          Race



                                                        D Wh
                                                        . Ot
                                                        I8



                           Sample             Population
Figue 2: Sample   representativeness by patient demography, 1988

Because of its random design , the sample should also accurately represent the
distribution of DRGs.
                                       FINDINGS

 DRG CODING ERROR REUCE

 Of the sample discharges ,    14.   7 percent
                                                  Percnt
 proved to have coding errors that
 changed their DRGs. This proportion
 was statistically significantly lower than
 the 20. 8 percent for 1985 (18.4 percent

 after reweighting to make the 1985
 sample comparable). The standard                                    198
 error of 0. 7 indicated this point estimate
 to be quite precise , a secondary effect of                                    198
 the sample size. (Figure 3).

 No hospital demographic characteristics
 had a statistically significant effect upon
 the proportion of DRG coding errors.            Figue 3: Proportion of discharges with
 Smaller hospitals had higher proportions        DRG coding errors , 1985 and 1988
 of miscodes , but this apparent difference
 did not attain statistical signifcance.

  Similarly, no patient demographic characteristics had a statistically significant effect

  upon the proportion of DRG coding errors. Discharges of younger patients had

" higher error rates , However, this difference also failed to attain statistical significance.

 DRG    CR ELIATED
 The 1988 DRG errors divided evenly                Percnt                    Hospitals
 between errors that had over-reimbursed
                                                                           over.relmburs
 the hospital (50. 7 percent) and under-
                                                                           under-reimbursd
 reimbursed the hospital (49. 3 percent).
 This non- directionality differed
 significantly from the 61.7 percent of
 1985 coding errors that over-reimbursed
 the hospital. (Figure   4).

 The equal division between coding errors
 that over-reimbursed and under-
  reimbursed the hospital occurred across                     1985              198
  all hospital characteristics. For-profit
, hospitals over-reimbursed themselves           Figue 4: Direction of DRG coding errors
                                                 1985 and 1988

  more than did other tyes of hospitals
 but these differences did not attain
 statistical signifcance. The direction of coding error also exhbited no statistically

 significant trend by patient characteristics.


 The OIG calculated the financial        effect

 of coding errors using the case-mix index                         Cae-mix Index

 (CMI), which quantifies the complexity                         Beore
. and resource intensity of Medicare
                                                             DAfer
  reimbursed discharges. Hospitals with
 higher mean relative weights serve

 Medicare patients with more complex

 conditions and therefore consume more

 resources. Ths inspection     calculated

 CMI as (1) submitted to the Fls for

 reimbursement, (2) reabstracted by the

 AM      on a blinded basis , and (3) the                       198                 198

 difference or mean weight change due to

 coding inaccuracy. After AMRA Figue 5: Case-mix index before and after
                               DRG reabstraction , 1985 and 1988
 recoding, the overall CMI increased
  0023 , a statistically nonsignificant
 difference. Exrapolating this financial change to all 10. 8 milion Medicare discharges
 DRG coding errors under-reimbursed hospitals by $69. 8 milion. This difference
 amounted to only 0. 1 percent of the $52 bilion in 1988 PPS expendituresP The
 average hospital biled for        less reimbursement for itself than it should have
                              slightly

 received. (Figure 5).

/ MIPECIFCATION UNER-REIMURSES                           WH REEQUENCING
. OVE-REIMURSES
 Each stage of the reimbursement                                        Reason

process introduced coding errors for a

                                                                      Mis-specification

 different reason. The OIG identified
 three tyes of errors:   mis-specification
                                                                      Miscoing

miscoding, and resequencing. Mis-                                     Resequencing

specification describes physician errors in                        . Oter

attesting to the narrative diagnoses.

Miscoding refers to the medical records

 department selecting the wrong ICD­
CM code for a correct narrative
diagnosis. Resequencing involves the
                                                         1985                              1988
biling department improperly
substituting a secondary diagnosis for the         Figue 6: Reasons for DRG coding errors
 correct principal diagnosis. (Figure 6).          1985 and 1988

Narrative changes accounted for 63. 2 percent of the 361 DRG errors. Examples of
mis-specification include (1) the physician selecting the wrong principal diagnosis and
(2) including or excluding a complication, comorbidity, or operating room procedure.
  Resequencing cause 26. 6 percent of DRG errors. In all of these cases , the
  review disagreed with the providers ' listing sequence. Usually, a secondary , diagnosis
  was listed as the principal diagnosis. In other cases , the diagnosis needed greater
  specificity. ICD- CM ruling changes accounted for the remaining sequence changes.

   Miscoding comprised 9. 1 percent of DRG errors. The incorrect numeric code was
 , usually for the - principal diagnosis , rather, than for complications , comorbidities , or

  operating room procedures. A few changes represented inaccurate discharge

  destinations or apparent tyographical errors.


  Mis-specification significantly under-

  reimbursed hospitals; while resequencing              160


  significantly over-reimbursed them.                                              Hos

                                                                                  ov-rburs
  Thus , the attending physicians selected
  their patients ' diagnoses and procedures

                                                        100
                                                                                  18-r

 with caution , earning their hospitals less

 reimbursement than they should have

 received.


 The biling departments behaved more
 aggessively, obtaining greater

 reimbursement than their employers                        MIwMIs Resue
                                                        -100
                                                                                       OC
 should have received. Possibly the
 hospitals had greater influence over             Figue 7: Reasons for DRG changes by
 employees , or the employees identified          direction of reimbursement change , 1988
.' closely with the economic interests of the
, hospital. The sentinel effect of the Peer Review Organizations surveilance           did not
   fully prevent over-reimbursement due to resequencing. (Figure 7).

 These two trends , under-reimbursement due to physician mis-specification and over-
 reimbursement due to resequencing, approximately offset each other; so that overall
 hospitals received correct reimbursement. Whether this equilbrium will continue is
 unknown.

 CETAI DRGS AR MOST SUSCEPTLE TO ERROR
 In this random sample of discharges , vascular disorders such as heart failure , angina
 stroke , and arrhythmias cause Medicare hospitalizations most frequently. Overall , 28
 of the 476 DRGs accounted for half of the total bils, and 10 DRGs accounted for 28.
 percent of all bils. Most coding errors fell into these DRGs, but not in direct ratio to
 the DRGs ' volume. (Table 1).

 This report identified DRGs with high proportions of coding errors by dividing the
 number of errors by the frequency of bils for specific DRGs. Many of these DRGs
 covered vague or nonspecific diagnoses such as atherosclerosis (DRG 132), other
 circulatory system procedures (DRG 120), respiratory signs and symptoms (DRG 99),
       DRG description


         pectoris
                                                                                         n (%)

 127   Heart failure and shock
 140 Angina
                                                                           133 (5.4)
                                                                            89 (3.

 89    Simple pneumonia
 14 Specific cerebrovascular disorders except TIA                           75 (3.
                                                                            74 (3.
 182 Esophagitis , gastrointestinal , and miscellaneous digestive disorders 66 (2.


 209 Major     joint procedure
 96 Bronchitis and asthma with complications
 15 Transient ischemic attacks
                                                                            63 (2.

                                                                            55 (2.
                                                                            47 (1.9)


       Other 1

 138 Cardiac arrhythmia and conduction disorders 45 (1.
 296 Nutritional and miscellaneous metabolic disorders with complications 44 (1.

       Total
                                                                                  760 (71.8)

                                                                                451 (100.
Table 1: DRGs biled most frequently,     1988


and other nervous system disorders (DRG 34). This indeterminateness           suggests
inherent ambiguities in medical taxonomy. For example , DRG 99 includes apnea
dyspnea , hemoptysis , hypercapnia, pleurodynia , stridor, and ventilatory failure. (Table
2).

       DRG description                                                         Miscoded
                                                                               Number (%)

132    Atherosclerosis                                                              3 (75.

413    Myeloproliferative                                                           4 (66.

185    Dental except extractions                                                    2 (66.

120    Other circulatory system procedures                                          3 (66.

       Respiratory signs and symptoms                                               5 (62.

403    Lymphoma and nonacute leukemia                                               3 (60.

       Other nervous system disorders                                               3 (60.

       Other                                                     420             341 (14.


       Total                                                     451             361 (14.
Table 2: DRGs with high proportions of coding errors , 1988

Over-reimbursement concentrated in selected DRGs and certain tyes of hospitals.
This report identified DRGs with maxmum savigs potential by multiplying the error
frequency by reimbursement change for each DRG. Although this inspection found
no overall over-reimbursement to hospitals , certain DRGs stil significantly over-
reimbursed the hospitals. In particular, 13 DRGs each had over $20 milion in
projected overpayments. This group consisted primarily of DRGs with operating room
procedures, probably because of their high relative weights.   (Table   3).
. .




               DRG description	                                          Over-reimbursement
                                                                         $ per     $ milion
                                                                         discharge total

        104   Cardiac valve procedure with pump & cath                           4915   81.1
        468   Unrelated operating room procedures                                1128   78.
        475   Respiratory system diagnosis with ventilator                        791   49.
        110   Major reconstructive vascular procedures                            682   47.
        191   Major pancreas , liver, & shunt procedures                         3313   43.
        154   Stomach , esophageal , & duodenal procedures                       1114   40.
              Pulmonary edema & respiratory failure                               571   37.
              Respiratory system operating room procedures                        764   25.
              Respiratory neoplasms                                               306   24.
        121   Myocardial infarction discharged alive                              189   23.
        415   Operating room procedure for infection                              858   22.
        148   Major large & small bowel procedures                                202   22.
        217   Wound debridement & skin graft                                      333   22.
              Other	                                               235           263 - 587.
              Total	                                               451                  69.
       Table 3: DRGs with maxmum savings      potential ,   1988

        Additionally, small and for-profit hospitals made more errors that over-reimbursed
        themselves than did other tyes of hospitals. This net over-reimbursement totaled
      / $842. 2 milion.
                     RECOMMENDATIONS

  ~ The Peer Review Orgations should contiue their sureilance of hospita

     cog for DRG reimburement accurcy.

     The attestation requirement appears to-have deterred over..reimbursement due to
     mis-specification by attending physicians , causing their hospitals to be under-
     reimbursed. However, the sentinel effect did not fully prevent over-reimbursement
     due to resequencing by hospitals. Although these two trends approximately offset
     each other, this equilbrium may not continue in the future.

     The Agency for Health Care Policy Research plans to reabstract the ICD-
     codes from a large sample of Medicare charts to determne their diagnostic
     accuracy for health servces research purposes. Using 1991 data, grouping these
     ICD- CM codes to DRGs , and selecting reasons for any differences would provide
     a third time point with which to track trends in reimbursement accuracy. The OIG
     supports this effort.

  AGENCY     COMM
 In its May 29, 1992 comments to the draft of this inspection , the HCFA concurred
 with the OIG recommendation. The HCFA noted that the improvement in DRG
 coding accuracy may be attributable to increased hospital experience with PPS , PRO
  review, and HCF A educational efforts.

/ The HCF A also made a number of technical   comments. Based on these comments
  the OIG made several changes to this inspection. The full text of the HCF
  comments appear as an appendix.
                                        ENDNOTE

 1. Schweiker R S.     Report to Congress: hospital prospective payment for medicare.
 Washington , DC: U. S. Department of Health and Human Servces , 1982.

 2. Social Security Amendments of 1965.        Pub. L. No. 89-   , 79 Stat 286 (1965).

 3. Social Security Amendments of 1983.        Pub. L. No. 98-   , 97 Stat 65 (1983).

 4. Commission on Professional and Hospital Activities. International classification of
 diseases , 9th edition, clincal modifications. Ann Arbor, MI: Edward Brothers , 1980.

 5. Fetter R B , Shin Y, Averill R F, & Freedman A T. The new ICD- CM diagnostic
 related groups classification scheme user s manual: final report. New Haven, Cf: Yale
 School of Organization and Management , Health Systems Management Group, 1981.

 6. Fed Reg, July 31 , 1985; 50 (147): 31038.

 7. Shriners ' Hospital for Crippled Children -- Colorado Corporation -- Conveyance. Pub.
 L. No. 94- 505; October 15 , 1976: Title II       201- 07.

 8. Delaney A M & Hsia D C. 1985 national DRG validation study. Lexington , MA:
 Health Data Institute , 1987. Report prepared for the Office of Inspector General. U.
 Department of Health and Human Servces; contract HHS- 100- 87- 0015.

, 9. Hsia D C, Krshat W M , Fagan A B , Tebbutt J A, & Kusserow            R P. Accuracy
 diagnostic coding for medicare patients under the prospective- payment system. N Engl
 J Med , 1988; 318: 352- 55.

 10. Division of Information Analysis , Office of Statistics and Data Management, Bureau
 of Data Management and Strategy, Health Care Financing Administration, U.
 Department of Health & Human Servces. 1989 HCF A Statistics. Baltimore, MD:
 Health Care Financing Administration , 1989: 16 & 34.

 11. Ruther M, Reily T W, Silverman H A, & Abbott D B. Medicare and Medicaid data
 book, 1990. Baltimore , MD: Office of Research and Demonstrations , Health Care
 Financing Administration , U. S. Department of Health & Human Servces , 1991: 15.
 HCFA pub. no. 03314.

 12. Division of Information Analysis , Office of Statistics and Data Management , Bureau
 of Data Management and Strategy, Health Care Financing Administration , U.
 Department of Health and Human Servces. 1989 HCF A statistics. Baltimore , MD:
 Health Care Financing Administration , 1989: 25. HCFA publication no. 03294.
..




                                         APPENDIX A

                                         PROJECf PARTICIPANTS


     OIG

     Cathaleen A. Ahern , B.

     Evan J. Buckingham, B.

     David C. Hsia , J. , M. , M.

     Thomas F. Komaniecki, M.

     W. Mark Krshat , M.
     Unda M. Moscoe , B.
     Brian P. Ritchie , B.A.
     Barr L. Steeley
     John M. Traczyk, B.

     HCFA

     Timothy F. Greene , M. , M.

     Stephen F. Jencks , M.

     Michael R. McMullan , M.

     Harr L. Savitt , Ph.

     Jeanette M. Smith , M.        , M.

     Malcolm A. Sneen , B.S.


     RA Corporation
     Haya P. Rubin , M.      , Ph.

     Baxer- Health Data Institute

     Patricia J. Baxer, R.

     Patricia Cassidy- Tsnosas ,   R.

     Annette M. Delaney, R. , M.

     Ellen B. Inghileri , R.

     Janet Mathews , A.

     Laurie H. Moore , R.

     Claire Shannon, AR.

     Michele A. Wiese , B.



     Margret K. Amatayakul , M. B.A. , R.
     Mary Converse , R.


     1. Institutions appear in chronological order of involvement.
     2. Now at Health Audit Servces , Ellcott City, MD.
     3. Now at the Journal of the American Medical Association , Chicago , IL.
     4. Now at Johns Hopkins Medical Institutions.
     5. Ceased operations February 16 , 1990.
Nicholas J. Cotsonas , M.

Linda Ertl, R.

Rita M. Finnegan , R.

Desla Mancila , A.

Barbara Manny, R.

Sonia Martiuk, R.
Toula Nicholas ,   AR.
Charlotte Razor, R.
LouAn Schraffenberger, R.
Lynn, Smetko , R.
Dawn Smith, AR.
Joan Zacharias , A. R. T.

BOTEC Analysis COI:poration
Geraldine M. Berenholz, R.
Andrew H. Chalsma, B.
David P. Cavanagh, M. , Ph.
Janet W. Knight, R. , Ph.
Amy L. Lockwood , B.




6. Outside contractor.
         APPENDIX
HETH CAR FIANCIG ADMITION COMMNT
('   ''                 . ,


           ""Ie
                                                                                                  Health Care
                           DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Financing Administration
                  lt:
          "OWIG
                                                                                                 Memorandum
                               MAY 2 9 

            Date

            From               Wilam Toby; Jr.
                               Actig Administrator
           Subject
                               OIG Draft Report: "National DRG Valdation Study Update: Summary

                               Report" (OEI- 12-89-O190) and "National DRG Valdation Study Update:

                               Technical Report" (OEI- 12-89-O191)


                               Inspector Genera
                               Offce of the Secretary

                                      We have reviewed the above-referenced
                               updates to a previous OIG study which re-abstrctd
                                                                                dr   report which are
                                                                                 the International
                               Clasifcation of Diseaes, 9th Edtion,    Cliica Modcation coes from a
                               saple of 1985     Medicare discharges. These report update the previous study
                               by: replicating the 1985  work on cog    accuracy using 1988 data comparg
                               the findings   from 1985 and 1988, and identig    pattrns ofcog    errors that
                           the Prospectie Payment System (PPS) changes could mod. The saple
                           was nationaly representative and covered al of caenda yea 1988, the most
                           recnt year      for which data were available.

                                  OIG found a signifcat improvement in hosita           cog
                                                                                         of PPS cas
                           between 1985 and 1988. In  the 1985 study, OIG found that 20. 8 percent of
                           1985 Par A bil contaed      cog   errors that changed the dignosc related
                           group (DRG) and that 61. 7 percent of thes errors over-reimbursd the
                           hospitals. This improper DRG cog incread tota PPS diurments
                                                m.on. Durig the 1988 study, OIG found that
                                9 percent or $308
                           14. 7 percent of the diharges hadDRG cog              percnt of DRG
                                                                               errors 51
                           errors over-reimbursed the hospita and 49 percnt         under-reimburd the
                           hospita. Taken together, the        1988 DRG errrs rested in no net
                           overpayment of hospita.

                                 We believe thes report are a useful addition to the contiuing
                          research and evaluation of cae mi change among hospita paid under PPS.
                          We agree with OIG' s recommendation that Peer Review Organtions
                          contiue their surveilance of hospita cong of DRG reimbursment
                          accuracy. Our detailed comments on these two report are attched for your
                          consideration.
".




     Page 2 - Inspector General

            Thank you for the opportnity to review and comment on these draft
     report. Please advise us if you agree with our position on the report'
     recommendation at your earliest convenience.


     Attachment
J ;-­

                        Comments of the Health Care Financing Administration (HCEA
                       on OIG' s Draft Reports: " National DRG Validation Study Update:
                       Summary Report" OEI- 12- 89- 00190 and " National DRG Validation
                              Study Update: Technical Report" OEI- 12- 89- 00191


         DIG Recommendation

         The Peer Review Organizations (PROs) should continue their surveilance
         hospital coding for DRG reimbursement accuracy.

         HCF A Response


        We agree. The PROs wil continue their surveilance of hospital coding of
        diagnostic related group (DRG) reimbursement accuracy.

        We are pleased to note the decrease in DRG coding errors identifed by the
        1988 study, as compared to the 1985 study. We believe this improvement may
        be           to a combination of factors including increased hospital
              attributed

        experience under the prospective payment system (PPS), the impact of PRO
        review and the effect of HCFA educational efforts to enhance coding accuracy.

        General Comments

        Summary Report. OEI- 12- 89- 00190

        This report includes a brief but excellent description of the payment process
        including the role of         Three tyes of errors are defined at each stage of
                                    coding.

        the payment process. However, no statement is made as to whether or not the
        errors are mutually exclusive,        and if the 361 records with errors contained only
        1 of each tye. We believe this information should be included in the final
        report.

        Although the representativeness of the sample is thoroughly addressed , there is
        no discussion as to how adequately each DRG is represented. We would like
        to know how the distribution by DRG of the sample relates to the universe of
        DRGs , and if any correlation exists between high volume DRGs and errors in
        the sample. Also , we note that most hospitals contributed only one discharge
        to the sample. We question whether it is statistically valid for
        1 record in 1 hospital to represent 3 300 other records in the total population
        of records.



        It is not made clear in the report how payment projections are calculated. The
        amount used to estimate payment is not stated , although mention is made
                ,'




.I




      Page 2


      of using a rate of $3      118 for metropolitan hospitals and $2 637 for
      non metropolitan   hospitals (page 29, Technical Report). It is stated that these
      are " current dollars " but there is no discussion as to the actual figures used to
      ptoject payment amounts. While the calculation for case-mix index (CMI) is
      clearly defined , as is the DRG difference before and after coding, it is not
     , clear how the payment amount is determined. The final report should include
       a more complete descrption of payment calculation.

     Executive Summary, page ii - "DRG coding errors , overall, no longer over-
     reimburse hospitals." The figure for under-reimbursements is stated to be
        588. 0 bilion. " The correct figure is $2, 588 millon (also Executive

     Summary, page ii, Technical Report).


     Findings        pages 5 ,
                           9 - While it is unwise to ignore magnitudes and only pay
     attention to statistical significance, we do not believe effects that are not
     statisticalIy significant should be highlighted. For example, the report notes
     that for-profit hospitals " over-reimburse themselves " but that "these results did
     not attain statistical signifcance " (also CMI discussion , pages 13 , 14, Technical
     Report).

     Findings , page 6 - The narrative incorrectly states               CMI
                                                              that the overall
     decreased after the study s recoding. For hospitals to have underpaid
     themselves , the CMI would have to increase after recoding, as is correctly
     stated on page 13 of the Technical Report.

     Findings , page 6, Figure 6 - The 1988 pie chart does not match the numbers
     the text immediately below the chart. The resequenced and miscoded pieces
     of the pie do not represent the 27 percent and 9 percent respective figures and
     may have been reversed in the pie chart.

     Technical Report

     Introduction, page 1, paragraph 3 - The original number of DRGs in 1983 was
     470 , not 476.

     Introduction, page 1, paragraph 4 - The narrative implies that there is a fiscal
     intermediary for each State. The sentence should be rewrtten to state: "
     fiscal intermediary receives the hospital bils for each State."
..   !'                                                                            ...




          Page 3


          Page 2, paragraph 3 ,under the heading "The HCF A . . . made the following
          points in commenting on the 1985 Study" - It was HCF A' s intent to point out
          that the 1985 study was published in November 1987, and conclusions set forth
          in that report were based in part on information    and coding conventions which
          had been updated by the time the report ,was released. The phrasing "
          needed a longer learning period to adjust to the new payment and quality
          monitoring system "   does not encompass the concept that changes have been
          made to the whole International Classification of Diseases, 9th Edition , Clinical
          ModificationlProspective Payment SystemlDRG system since its conception.
          Such changes and improvements continue to be made.

          Page 4 - We do not believe the data support some of the assertions and
          language which the report uses. For example , the report describes the findings
          of the earlier OIG report as showing "intentional ' gaming ' or manipulating (of
          the) coding process " by hospitals. The note cites unrelated sources while the
          earlier report used much more restrained language.

          The report consistently characterizes coding disagreements as provider " errors.
          A recent Rand study used charts re-abstracted at SuperPRO to examine the
          1987- 88 increase in the Medicare CM!. Rand estimated that changes in coding
          common to SuperPRO and hospitals accounted for almost one- third of the
          1987- 88 CMI increase. Since SuperPRO coders have no incentive to upcode
          this probably reflects changes in explicit and implicit coding rules between
          original coding (1987) and recoding (1988). While the CMI may increase
          payments to hospitals will not. However, disagreements which may reflect the
          evolution of coding practice over time are not strictly provider "errors." Rand
          and OIG studied slightly different problems, and the Rand finding may be '
          unique to 1988. However, since American Medical Records Association staff
          should be able to provide insight on this matter, we recommend that OIG
          explore and report on the question of whether the increase in the CMI is
          attributable to provider errors or the evolution of coding practices.

          Page 4, paragraph 3 - " Each year, the relative weights change to reflect
          alterations in resource consumption, DRG title, coding and. . . ." The change
          in relative weights is not related to the title of the DRG.
.r. r





         Page 4


         Page 10 - The report does not find net overpayment due to coding error.
         Inclusion of a table of DRGs with " maxmum savings potential (to Medicare)"
         due to upcoding, without a paraJIel table of DRGs with maxmum potential
         payment increase , gives an impression of lack of balance. Financial impact
         (savings) estimates could be presented in the context of the argument that
         while " . . . trends to over-pay   and under-pay   approximately offset each other
         this equilbrium may not continue in the " future."

         Page 12 - OIG reports that coding errors (incidence of coding error capable
         influencing DRG assignment) declined significantly between 1985 and 1988.
         While true , the report overstates the change. The 1985 report used a two-
         stage sampling design and reported error rates for the nation of 20. 8 percent
         (hospital-weighted) and 18. 6   percent (case-weighted). The update report finds
         a 1988 error rate of   14. 7 percent but compares it to the 1985 hospital-weighted
         statistic. The 1988value , based on a simple random sample of cases , is
         equivalent to a case-weighted statistic and should not be compared with       a
         hospital-weighted value.

         Page 15 - Some PPS details in the draft report are obscured. For        example ,   the
         report discusses " base   payment amounts" when it means standardized amounts.
         Discussion of reimbursement effects states that financial impacts "paraJIeled
         CMI changes " when they are simply calculated from and are 10gicaJIy
         equivalent to such changes.



         Appendix 5 - There appears to be an error for hospitals with 300 or more
         beds. The response rate of 66. 8 percent should be changed to 48. 9 percent
            199 responses of 2 451).


         There is some disagreement between the narrative and the appendices. Table
         9 ilustrates the number of records per DRG and the number miscoded.
         Appendix 21 lists each DRG with the number of records selected and the
         error frequency and the proportion of errors. While the number of records
         selected is consistent between the table and the appendix the number of
         errors is not. There is no indication why these numbers differ, the source of
         this data, or which is correct. However, the errors reported in appendix 21 do
         total 361, the correct total for the study.

